No.
__________________________________________________
In The
SUPREME COURT OF THE UNITED STATES
____________________
William A. Salzwedel, on behalf of himself,
and all others similarly situated,

Petitioner
v.
State of California, et al.

Respondents
______________________
CERTIFICATE OF SERVICE OF, AND REPRESENTATION STATEMENT
FOR, PETITION FOR WRIT OF CERTIORARI
Filed By U.S. Mail On August 22, 2019
And Corrected Petition And Appendix Filed October 23, 2019
CERITIFICATE OF SERVICE
I certify that on this 23rd day of October, 2019, as required by Supreme
Court Rule 33.1(f), forty (40) bound copies, and one 8½ x 11 inch copy, of the
enclosed Petition For Writ of Certiorari, corrected with corrected Appendix
pursuant to the Supreme Court Clerk’s instruction letter dated August 27,
2019 were sent, postage prepaid by Priority Mail, via the United States
Postal Service, bearing a postmark of today to:
Supreme Court of the United States
Office of the Clerk
1 First Street, N.E.
Washington, DC 20543
I, the undersigned, hereby declare that I am a resident of California
and County of Ventura. I am over the age of 18, and I am the Petitioner in
the enclosed Petition For Writ of Certiorari. I am also a Member of the Bar of
the Supreme Court of the United States, having Bar #265222. My residence
address is 144 Yucca Ln., Thousand Oaks, California 91362, and my
telephone number is (805) 497-4511.

1

All parties required to be served with this Petition For Writ of Certiorari
have been served pursuant to Supreme Court Rule 29.3.
On October 23, 2019, I served three (3) true and correct booklet copies
of the enclosed Petition For Writ of Certiorari (corrected with corrected
Appendix pursuant to the Supreme Court Clerk’s Instruction letter, dated
August 27, 2019) on each of the below counsel at their respective addresses
indicated, by enclosing them in a sealed envelope for each as follows, bearing
the respective address of the counsel, and depositing the envelopes with the
United States Postal Service at Thousand Oaks, California, on October 23,
2019, with postage fully prepaid on each, as Priority Mail, bearing a
postmark:
Jeffrey A. Rich
Deputy Attorney General
Attorney General of
California
1300 I Street, Suite 125
P.O. Box 944255
Sacramento, CA 94244-2550

LEROY SMITH
County Counsel, County of Ventura
MARTHA J. WOLTER
Assistant County Counsel
800 South Victoria Avenue
L/C #1830
Ventura, California 93009

Kevin M. McCormick
BENTON, ORR, DUVAL & BUCKINGHAM
39 North California Street
Ventura, California 93001
Law Offices of John C. Barlow
John C. Barlow
Jeffrey T. Belton
1720 E. Los Angeles Avenue
Suite 231
Simi Valley, CA 93065
On October 23, 2019, I also emailed a true and correct copy of the
enclosed Petition For Writ of Certiorari to counsel for each of the parties to
this case at their respective email addresses as follows:
Jeffrey A. Rich
Jeffrey.Rich@doj.ca.gov

Martha J. Wolter
marty.wolter@ventura.org

Kevin M. McCormick
kmccormick@bentonorr.com

John C. Barlow
john@barlowlawfirm.com

2

Jeffrey T. Belton
jeffreytbelton@gmail.com
REPRESENTATION STATEMENT
The undersigned is the Petitioner with respect to the enclosed Petition
for Writ of Certiorari, on behalf of himself and as representative of the
plaintiff classes named in a First Amended Complaint filed in the U.S.
District Court described in the Petition For Writ of Certiorari.
The following are all the other parties with respect to the Petition For
Writ of Certiorari grouped according to their respective counsel, with their
respective counsels’ names, addresses, telephone numbers, facsimile
numbers, and email addresses listed as follows:
Xavier Becerra, Attorney General of California
Thomas S. Patterson, Senior Assistant Attorney General
Anthony R. Hakl, Supervising Deputy Attorney General
Jeffrey A. Rich, Deputy Attorney General
1300 I Street, Suite 125
P.O. Box 944255
Sacramento, CA 94244-2550
Telephone: (916) 210-6043
Fax: (916) 324-8835
Email: Jeffrey.Rich@doj.ca.gov
Attorneys for Defendants:
STATE OF CALIFORNIA, on behalf of itself and all other states
JUDICIAL BRANCH OF CALIFORNIA, on behalf of itself and all
other similarly situated court systems of other states
HONORABLE TANI G. CANTIL-SAKAUYE, CHIEF JUSTICE OF
CALIFORNIA, on behalf of herself in her official capacity and all other
similarly situated officials within other states

3

JUDICIAL COUNCIL OF CALIFORNIA, on behalf of itself and all
other similarly situated bodies within other states
MARTIN HOSHINO, ADMINISTRATIVE DIRECTOR OF THE
JUDICIAL COUNCIL OF CALIFORNIA, on behalf of himself in his
official capacity and all other similarly situated officials within other
states
SUPERIOR COURT OF CALIFORNIA FOR THE COUNTY OF
VENTURA, on behalf of itself and all other Superior Courts of
California and all other courts that adjudicate or supervise
conservatorships or guardianships of adults in other states
HONORABLE JUDGE GLEN M. REISER, on behalf of himself in his
official capacities and all other judges in California that adjudicate or
supervise conservatorships of adults and all other judges that
adjudicate or supervise conservatorships or guardianships of adults in
other states
CALIFORNIA COURT OF APPEAL FOR THE 2ND APPELLATE
DISTRICT, DIVISION SIX and all others similarly situated
Leroy Smith, County Counsel, County of Ventura
Martha J. Wolter, Assistant County Counsel
800 South Victoria Avenue, L/C #1830
Ventura, California 93009
Telephone: (805) 654-2879
Facsimile: (805) 654-2185
Email: marty.wolter@ventura.org
Attorneys for Defendants:
OFFICE OF THE PUBLIC DEFENDER FOR THE COUNTY OF
VENTURA, STATE OF CALIFORNIA, on behalf of itself and all other
entities similarly situated
COUNTY OF VENTURA, on behalf of itself and all other entities
similarly situated
MARY WEBSTER (AKA MARY C. SHEA), in both her individual
capacity and official capacity and all others similarly situated
Kevin McCormick

4

Benton, Orr, Duval and Buckingham
39 North California Street
Ventura, California 93001
Telephone: (805) 648-5111
Facsimile: (805) 648-7218
Email: kmccormick@bentonorr.com
Attorneys for Defendants:
ANGELIQUE FRIEND, CONSERVATOR OF THE PERSON AND
ESTATE OF LESTER G. MOORE and all others similarly situated
BENTON, ORR DUVAL & BUCKINGHAM and all others similarly
situated
THOMAS E. OLSON and all others similarly situated
Law Offices of John C. Barlow
John C. Barlow
Jeffrey T. Belton
1720 E. Los Angeles Avenue, Ste. 231
Simi Valley, California 93065
Telephone: (805) 522-2555
Facsimile: (805) 522-2826
Email: john@barlowlawfirm.com
jeffreytbelton@gmail.com
Attorney For Defendants:
JOHN BARLOW and all others similarly situated
POPPY HELGREN and all others similarly situated

I declare under penalty of perjury under the laws of the State of
California and the United States that the foregoing is true and correct and
that this declaration is executed on October 23, 2019.

s/ WILLIAM A. SALZWEDEL
_____________________________
William A. Salzwedel

5

